No.
IN THE

SUPREME COURT OF THE UNITED STATES
ALBON DIAMOND,
Petitioner,
v.
MARK S. INCH,
SECRETARY, FLORIDA DEPARTMENT OF
CORRECTIONS,
Respondent.
On Petition for Writ of Certiorari
to the Eleventh Circuit Court of Appeals
PETITION FOR WRIT OF CERTIORARI
MICHAEL UFFERMAN*
Michael Ufferman Law Firm, P.A.
2022-1 Raymond Diehl Road
Tallahassee, Florida 32308
FL Bar No. 114227
MARK V. MURRAY
Law Office of Mark V. Murray
317 East Park Avenue
Tallahassee, Florida 32301
FL Bar No. 182168
COUNSEL FOR THE PETITIONER
* Counsel of record

i
A. QUESTIONS PRESENTED FOR REVIEW
Whether

a

freestanding

claim

of

actual

innocence is cognizable in a 28 U.S.C. § 2254
proceeding.

ii
B. PARTIES INVOLVED
The parties involved are identified in the style of
the case.

iii
C. TABLE OF CONTENTS AND TABLE OF
CITED AUTHORITIES
1.

TABLE OF CONTENTS

A.

QUESTION PRESENTED FOR REVIEW . . i

B.

PARTIES INVOLVED . . . . . . . . . . . . . . . . . . ii

C.

TABLE OF CONTENTS AND TABLE OF
AUTHORITIES . . . . . . . . . . . . . . . . . . . . . . iii
1.

Table of Contents . . . . . . . . . . . . . . . . iii

2.

Table of Cited Authorities . . . . . . . . . iv

D.

CITATION TO OPINION BELOW . . . . . . . . 1

E.

BASIS FOR JURISDICTION . . . . . . . . . . . . 1

F.

STATUTORY PROVISION
INVOLVED . . . . . . . . . . . . . . . . . . . . . . . . . . . 2

G.

STATEMENT OF THE CASE . . . . . . . . . . . . 3

H.

REASON FOR GRANTING THE WRIT . . . 13
There is a circuit split over whether a
freestanding claim of actual innocence is
cognizable in a 28 U.S.C. § 2254
proceeding . . . . . . . . . . . . . . . . . . . . . . . . . . . 13

I.

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . 31

iv
2.

TABLE OF CITED AUTHORITIES

a.

Cases

Baker v. Yates, 339 Fed. Appx. 690
(9th Cir. 2009) . . . . . . . . . . . . . . . . . . . . . 13-14
Carriger v. Stewart, 132 F.3d 463
(9th Cir. 1997) . . . . . . . . . . . . . . . . . . . . . 13-14
Collins v. Sec’y, Dep’t of Corr., case number
3:14-cv-47-TJC-PDB (M.D. Fla.). . . . . . . . . . 17
Cunningham v. District Attorney’s
Office for Escambia County,
592 F.3d 1237 (11th Cir. 2010) . . . . . . . . . . . 14
Dist. Attorney’s Office v. Osborne,
557 U.S. 52 (2009) . . . . . . . . . . . . . . . . . . . . . 15
Ex parte Yerger,
8 Wall. 85, 75 U.S. 85 (1868) . . . . . . . . . . 2, 28
Harris v. Nelson, 394 U.S. 286 (1969) . . . . . 2-3, 28-29
Herrera v. Collins, 506 U.S. 390 (1993). . . . . . . . . . 15
House v. Bell, 547 U.S. 518 (2006). . . . . . . . . . . . . . 13
Jackson v. Calderon, 211 F.3d 1148
(9th Cir. 2000) . . . . . . . . . . . . . . . . . . . . . . . . 15

v
Jordan v. Sec’y, Dep’t of Corr., 485 F.3d 1351
(11th Cir. 2007) . . . . . . . . . . . . . . . . . . . . . . . 14
McQuiggin v. Perkins, 569 U.S. 383 (2013) . . . 14-15
Osborne v. District Atty’s Office
for Third Judicial Dist.,
521 F.3d 1118 (9th Cir. 2008) . . . . . . . . . . . . 13
Strickland v. Washington, 466 U.S. 668 (1984) . . . 28
White v. Keane, 51 F. Supp. 2d 495
(S.D.N.Y. 1999) . . . . . . . . . . . . . . . . . . . . . . . 17
Wright v. Smeal, No. 08-2073,
2009 WL 5033967 (E.D. Pa. Dec. 23, 2009) . 17

b.

Statutes

28 U.S.C. § 1254 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
28 U.S.C. § 2254 . . . . . . . . . . . . . . . . . . . . . . .

passim

1
The Petitioner, ALBON DIAMOND, requests
the Court to issue a writ of certiorari to review the
order of the Eleventh Circuit Court of Appeals entered
in this case on February 11, 2021. (A-4). 1

D. CITATION TO OPINION BELOW
The order of the Eleventh Circuit Court of
Appeals was not reported.

E. BASIS FOR JURISDICTION
The jurisdiction of the Court is invoked pursuant
to 28 U.S.C. § 1254 to review the final judgment of the
Eleventh Circuit Court of Appeals.

1

References to the appendix to this petition will be

made by the designation “A” followed by the appropriate
page number.

2
F. STATUTORY PROVISION INVOLVED
28

U.S.C.

section

2254

authorizes

“an

application for a writ of habeas corpus in behalf of a
person in custody pursuant to the judgment of a State
court . . . .” “The great writ of habeas corpus has been
for centuries esteemed the best and only sufficient
defence of personal freedom.” Ex parte Yerger, 8 Wall.
85, 95, 75 U.S. 85, 95 (1868). In Harris v. Nelson, 394
U.S. 286, 292 (1969), the Court stated the following
regarding the “great writ”:
There is no higher duty of a court,
under our constitutional system, than the
careful processing and adjudication of
petitions for writs of habeas corpus, for it
is in such proceedings that a person in
custody charges that error, neglect, or
evil purpose has resulted in his unlawful
confinement and that he is deprived of his
freedom contrary to law. This Court has
insistently said that the power of the
federal courts to conduct inquiry in
habeas corpus is equal to the
responsibility which the writ involves:

3
The language of Congress, the history of
the writ, the decisions of this Court, all
make clear that the power of inquiry on
federal habeas corpus is plenary.
(Citation omitted).

G. STATEMENT OF THE CASE AND
STATEMENT OF THE FACTS
In 2009, the Petitioner was charged with
engaging in sexual activity with his stepdaughter’s son
– activity that allegedly occurred in 2007 after the
Petitioner had suffered a severe stroke. Following a
jury trial, the Petitioner was convicted and sentenced
to life imprisonment.

Notably, at trial, no expert

testimony was presented regarding the Petitioner’s
medical condition at the time of the purported offenses
and the impact his condition would have had on his
ability to engage in the conduct that was alleged by the
child. However, following his conviction, a doctor –

4
who was found credible by the trial court – opined that
it was medically impossible for the Petitioner to have
engaged in the alleged conduct – evidence that
establishes the Petitioner’s actual innocence.

The

issue in this case is whether a freestanding claim of
actual innocence is cognizable in a 28 U.S.C. § 2254
proceeding.
The Petitioner was born in 1952. During his
career, the Petitioner was a commissioned officer in the
Navy. He started as a Surface Warfare Officer with
the bridge team on the aircraft carrier U.S.S. John F.
Kennedy.

He eventually transferred to duty as a

Special Duty Public Affairs Officer. He ultimately
acted as the Public Affairs Officer for all three
admirals with the U.S. Navy Reserve Force, Naval Air,
and the Naval Surface Reserve. In addition, he was
the Public Affairs Officer for the Multi-National

5
Peacekeeping Force in Beirut in 1983. He was retired
at the time of the trial in this case.
At some point in time, the Petitioner married a
woman and adopted his wife’s daughter.

The

stepdaughter grew up, married, and had four children,
including R.J.A.2 who was born in 1998.
In February 2007, the Petitioner lived in
Pensacola, Florida. He was approximately 56 years
old. That month (February), he suffered a major brain
stem stroke. He spent over a month in the hospital
and rehabilitation center before being released to
complete his rehabilitation and recovery at home.
The Petitioner’s natural daughter (Arwen
Thames) moved in with the Petitioner in order to help
with his recovery. She observed that the Petitioner

2

Only the initials of the alleged victim (and other

minor witnesses) will be used in this petition.

6
was extremely weak while recovering from his stroke.
The Petitioner had trouble walking, he often had to
“somewhat drag his left leg,” he did not have control of
his left arm “all that much,” and he needed help
getting up and down the stairs. His left side was
“pretty much dead,” and he “was very, very weak.”
The Petitioner later testified that due to the
stroke:
I lost my entire left side. I spent a month
or so in the hospital going through rehab
learning how to re-walk, how to basically
regain the use of my side. I lost motor
control. I had I guess what you call tactic,
where I could feel things touching the
skin and I could identify, but I couldn’t
control my muscles, and, basically, had to
start all over again learning how to move
my feet, move my hands. During that
time I was also told that I have
hypertension and I’m a diabetic.
(A-18).

7
In April 2007, the Petitioner’s stepdaughter, her
husband, and her four children moved to a house about
half of a mile away from the Petitioner’s residence to
assist the Petitioner with his recovery. R.J.A. was
approximately eight years old at the time.
At trial, R.J.A. testified that he occasionally
spent the night at the Petitioner’s house in 2007, and
he claimed that one day, the Petitioner told him to pull
down his pants, that the Petitioner started touching
him around his penis area, and that the Petitioner put
R.J.A.’s penis in his mouth. (A-21-23). R.J.A. testified
that he and the Petitioner then engaged in a variety of
sexual activities with each other over the period when
“school was just ending.” (A-34). R.J.A. testified that
he and the Petitioner performed oral and anal sex upon
each other and that the Petitioner had ejaculated in
both his mouth and anus. (A-23-35).

8
During

the

state

court

postconviction

evidentiary hearing, the Petitioner presented Dr.
David Bear as a witness. Dr. Bear testified that he
was a neurologist who practiced in Pensacola, Florida,
and he had been practicing there in 2007. (A-36 & A68).

He

was

neurophysiology,

board
sleep

certified
medicine,

in

neurology,

and

headache

medicine. (A-39). The court recognized Dr. Bear as an
expert in neurology. (A-43-44).
Dr. Bear testified that he had reviewed the
Petitioner’s medical records relating to his 2007 stroke
and his subsequent rehabilitation.

(A-44).

He

reviewed objective tests such as MRIs and lab notes.
(A-45). He opined that the Petitioner suffered a brain
stem ischemia, a type of stroke that can cause
devastating physical damage. (A-46). He opined that
in February 2007, the Petitioner had significant motor

9
weakness, and required assistance to walk. (A-49-51).
The Petitioner’s upper extremity weakness was even
greater than the weakness in the lower extremities to
the point that the Petitioner could not move his arm
against the force of gravity. (A-49). He needed help
moving from bed to chair to wheelchair. (A-49-50). In
March 2007, the Petitioner could not walk 12 steps
without assistance. (A-51-52). By April 2007, the
Petitioner’s left arm was still severely impaired, where
he could move against gravity but could not move
against any resistance whatsoever.

(A-53-56). The

Petitioner’s wrist was still abnormal. (A-57-58).
Notably, Dr. Bear testified that it would have been
physically impossible for the Petitioner to get on his
hands and knees to engage in sexual activity during the
months in question. (A-62-64). Dr. Bear also noted the
diagnoses of stroke, diabetes, hypertension, peripheral

10
neuropathy, all of which were consistent with – but not
medically conclusive concerning – the Petitioner’s
claims of impotence. (A-64-65). He testified that the
Petitioner

could

not

have

faked

his

stroke,

hypertension, or diabetes. (A-65-66).
On cross-examination, Dr. Bear testified that
the Petitioner could touch a person in a sexual manner
with his right hand only. (A-70-71). The Petitioner
could place his mouth on a penis. (A-72-73). It was
not medically impossible that the Petitioner could
achieve an erection and ejaculate or throw ejaculate
with his right hand, but it was impossible for him to
sexually perform as described in the trial testimony,
which he had reviewed. (A-74-75). He opined that any
physician would express the same opinions that he was
expressing. (A-81-82).
The state trial court subsequently entered an

11
order denying the Petitioner’s state postconviction
motion.

The state trial court found Dr. Bear’s

testimony to be credible. The state trial court did note
the findings of physical weakness and Dr. Bear’s
opinion that the Petitioner could not hold himself up on
his hands and his knees. But the state trial court
agreed with the State’s characterization of the
testimony that Dr. Bear had opined that the Petitioner,
despite his diagnoses, “would have been able to commit
all of the crimes with which Defendant was charged.”
The Petitioner subsequently filed a 28 U.S.C. §
2254 petition. In his § 2254 petition, the Petitioner
sought to present a freestanding claim of actual
innocence.

On July 2, 2020, the magistrate judge

issued a report and recommendation recommending
that the Petitioner’s § 2254 petition be dismissed due
to circuit precedent that freestanding claims of actual

12
innocence in non-capital cases are not cognizable in §
2254 proceedings. On August 8, 2020, the district
court issued an order adopting the report and
recommendation and dismissing the Petitioner’s § 2254
petition. On February 11, 2021, the Eleventh Circuit
Court of Appeals denied the Petitioner’s request for a
certificate of appealability. (A-4).

13
H. REASON FOR GRANTING THE WRIT
There is a circuit split over whether a
freestanding claim of actual innocence is
cognizable in a 28 U.S.C. § 2254 proceeding.
In Baker v. Yates, 339 Fed. Appx. 690, 692 (9th
Cir. 2009), the Ninth Circuit Court of Appeals
recognized that a freestanding claim of actual
innocence is cognizable in a 28 U.S.C. § 2254
proceeding:
Baker asserts a freestanding claim of
actual innocence. The Supreme Court
has left open the question of whether
such a claim is cognizable under federal
law and, if so, whether the claim may be
raised in a non-capital case. See House v.
Bell, 547 U.S. 518, 554-555 (2006). We
have assumed that freestanding innocence
claims are cognizable and have held that
“‘a habeas petitioner asserting a
freestanding innocence claim must go
beyond demonstrating doubt about his
guilt, and must affirmatively prove that
he is probably innocent.’” Osborne v.
District Atty’s Office for Third Judicial
Dist., 521 F.3d 1118, 1130-1131 (9th Cir.
2008) (quoting Carriger v. Stewart, 132

14
F.3d 463, 476 (9th Cir. 1997) (en banc)).
(Emphasis added).
In contrast, in Cunningham v. District Attorney’s
Office for Escambia County, 592 F.3d 1237, 1272 (11th
Cir. 2010), the Eleventh Circuit Court of Appeals
stated that “this Court’s own precedent does not allow
habeas relief on a freestanding innocence claim in
non-capital cases.” (citing Jordan v. Sec’y, Dep’t of
Corr., 485 F.3d 1351, 1356 (11th Cir. 2007)). In the
instant case, the district court relied on this precedent
and dismissed the Petitioner’s freestanding claim of
actual innocence (and the Eleventh Circuit also relied
on this precedent in denying a certificate of
appealability).
In 2013, the Court stated that it has “not
resolved whether a prisoner may be entitled to habeas
relief based on a freestanding claim of actual

15
innocence.” McQuiggin v. Perkins, 569 U.S. 383, 392
(2013). See also Dist. Attorney’s Office v. Osborne, 557
U.S. 52, 71 (2009) (“Whether such a federal right exists
is an open question. We have struggled with it over
the years, in some cases assuming, arguendo, that it
exists while also noting the difficult questions such a
right would pose and the high standard any claimant
would have to meet.”) (citations omitted).3

3

In Herrera v. Collins, 506 U.S. 390, 417 (1993), the

Court assumed, without deciding, that “in a capital case a
truly persuasive demonstration of ‘actual innocence’ made
after trial would render the execution of a defendant
unconstitutional, and warrant federal habeas relief if there
were no state avenue open to process such a claim.” See
also Jackson v. Calderon, 211 F.3d 1148, 1164 (9th Cir.
2000) (noting that “a majority of the justices in Herrera
would have supported a claim of free-standing actual
innocence”).

16
By granting the petition in the instant case, the
Court will have the opportunity to resolve this circuit
split and clarify whether a freestanding claim of actual
innocence is cognizable in a § 2254 proceeding. As
suggested by at least one district court, it is
counterintuitive to allow “gateway” actual innocence
claims but prohibit “freestanding” actual innocence
claims:
And so one of the things – if you
were to ask somebody that wasn’t a
lawyer – if it turns out that we were
wrong and that the person is actually
innocent of the crime that they’re
currently serving time for, is it the State
of Florida’s position or the Secretary’s
position that in the federal habeas
context – if that’s all we know, that
there’s no underlying claim, that federal
habeas relief isn’t available?
....
We all get so used to talking about
this stuff, actual innocence is a gateway
to something else, which has always

17
seemed kind of interesting to me. Why
would you need – why would you need to
prove you’re actually innocent in order to
actually assert something else? I never
have quite understood that.
(Collins v. Sec’y, Dep’t of Corr., case number
3:14-cv-47-TJC-PDB (M.D. Fla.) (Doc 30 - Pgs 39-40).
Federal judges in this country need guidance from this
Court on this important question. See White v. Keane,
51 F. Supp. 2d 495, 504 (S.D.N.Y. 1999) (suggesting
that a liberal reading of Herrera extends actual
innocence claims to non-capital cases); Wright v.
Smeal, No. 08-2073, 2009 WL 5033967 at *9-10 (E.D.
Pa. Dec. 23, 2009) (addressing the merits of the
petitioner’s freestanding actual innocence claim in a
non-capital case).
The Petitioner’s case is the appropriate case to
address the question presented. R.J.A.’s credibility
was the lynchpin of the State’s entire case. There was

18
no evidence against the Petitioner except for R.J.A.’s
word that the abuse occurred. K.S. refuted R.J.A.’s
testimony that they were abused together by the
Petitioner, and the Petitioner adamantly denied that
the abuse occurred. R.J.A.’s story was that the
Petitioner did things of a sexual nature to and with
him, but the testimony of the neurologist (Dr. Bear)
during the state court postconviction evidentiary
hearing was that it was medically impossible for the
Petitioner to have done some of the things alleged by
R.J.A.

Such evidence destroys R.J.A.’s credibility.

More importantly, such evidence demonstrates that the
Petitioner is “actually innocent.”
At trial, the State attempted to show, through
argument and witnesses, that the Petitioner was
healthy and that he committed sexual abuse upon
R.J.A. in certain physical ways that were proven by Dr.

19
Bear at the evidentiary hearing below to be impossible.
At the outset of the 2010 trial, the state trial court – at
the State’s request – asked the Petitioner to remove his
cane from the defense table so that the jury could not
see it. In opening statements at the trial, the State
argued that after the Petitioner’s stroke, he “didn’t
really need. . . help [from family]. He recovered quickly
and was soon walking with a cane and driving and
going about his daily activities.” The Petitioner’s
stepdaughter testified that by April 2007, the
Petitioner “moved around very well.”

She testified

that he did not need her help. She testified that the
Petitioner
recuperated remarkably. He recuperated
very well. He went back to an almost
normal life. Minus the limp and using a
cane to stable himself, he went back to
doing almost everything that he normally
did, in my opinion.
(A-16).

During trial, R.J.A. testified

that the

20
Petitioner and he had anal intercourse with each other
that involved the person receiving anal sex being on
his hands and knees and the other person “on back.”
In closing argument, the State again argued that the
Petitioner
suffered a stroke in February of 2007, and
[R.J.A.’s family] came down supposedly to
help him recover. When they got here, he
didn’t need their help. He was driving
and going on about his daily activities
within months, and most of the alleged
incidents occurred towards the end of
school and during the summertime after
five months had past and the defendant
had rehabilitated.
The Defense is going to argue that
he was not physically capable of
conducting these offenses. Use your own
assessment of the credibility of the
witnesses and the likeliness of that
argument when determining whether or
not that’s credible.
(A-19-20).

In the defense closing argument, the

Petitioner’s trial counsel did indeed argue that the
Petitioner was physically unable to do the things that

21
R.J.A. accused him of, stating:
Mr. Diamond took the stand. He told you
what you already heard, that indeed he
had a stroke. He told that you he had
diabetes. He told you that he had
hypertension. He told you that he cannot
perform sexually. He denied the
allegations with everything that he has,
and he told you that not only that he did
not do this but he could not do this. So
look for the evidence and consider it and
consider the lack of the evidence.
(A-20).

Unfortunately, the jury did exactly that:

consider the lack of evidence. The Petitioner claimed
physical infirmity, but R.J.A., Stepdaughter Atkinson,
and the prosecutor all stated repeatedly that the
Petitioner was rehabilitated by the time of the alleged
offense. K.S., a boy whom R.J.A. said was abused in
the same room with him, agreed with the Petitioner
that the alleged abuse never occurred. Thus, the trial
came down to a determination of credibility. The jury
likely considered the lack of evidence put forth by the

22
defense that the Petitioner was incapable of doing
what R.J.A. claimed.
During

the

state

court

postconviction

evidentiary hearing, the Petitioner called Dr. Bear,
who was accepted as credible by the state trial court.
(A-44). Dr. Bear testified that he was a neurologist
who practiced in Pensacola, Florida. (A-36 & A-68). He
was board certified in neurology, neurophysiology,
sleep medicine, and headache medicine. (A-39). He
had never testified in a trial before. (A-40). The state
trial court recognized Dr. Bear as an expert in
neurology. (A-43-44). Dr. Bear testified that he had
reviewed the Petitioner’s medical records relating to
his 2007 stroke and his subsequent rehabilitation. (A44). He reviewed objective tests such as MRIs and lab
notes. (A-45). He opined that the Petitioner suffered a
brain stem ischemia, a type of stroke that can cause

23
devastating physical damage. (A-46). He opined that
in February 2007, the Petitioner had significant motor
weakness, and he required assistance to walk. (A-4951). His upper extremity weakness was even greater
than the weakness in the lower extremities to the point
that the Petitioner could not move his arm against the
force of gravity. (A-49). He needed help moving from
bed to chair to wheelchair. (A-49-50). In March 2007,
the Petitioner could not walk 12 steps without
assistance. (A-51-52). By April 2007, the Petitioner’s
left arm was still severely impaired, where he could
move against gravity but could not move against any
resistance whatsoever. (A-53-56). His wrist was still
abnormal. (A-57-58).
Dr. Bear testified that Stepdaughter Atkinson’s
trial testimony that the Petitioner had largely
recovered and barely had a limp in April 2007 was

24
incorrect. (A-60-62). In regard to R.J.A.’s claim that
he and the Petitioner had anal intercourse with one
another where they took turns getting on their hands
and knees while the other person knelt and penetrated
from “on back,” Dr. Bear testified that it would have
been physically impossible for the Petitioner to get on
his hands and knees to engage in sexual activity. (A-6264).

Dr. Bear also noted the diagnoses of stroke,

diabetes, hypertension, peripheral neuropathy, all of
which were consistent with the Petitioner’s claims of
impotence. (A-64-65). Dr. Bear testified that it was
possible that the Petitioner was lying and could
actually achieve an erection and ejaculate, but it was
medically impossible for him to perform as described in
the trial testimony. (A-74-75). He testified that no one
could fake a stroke, hypertension or diabetes. (A-6566).

25
The state trial court denied the Petitioner’s
postconviction claim because it accepted the State’s
argument that it was dispositive that Dr. Bear could
not promise that the Petitioner was not lying about
being able to experience an erection and agreed that
the Petitioner could move his right hand, could coerce
someone to do something through speech, and could
use his mouth to accept a penis into it. Thus, according
to the state trial court, Dr. Bear’s testimony did not
serve to rebut the State’s case in a way that gave rise
to a reasonable probability that the Petitioner would
have been acquitted. This was error (i.e., a finding
that was based on an unreasonable determination of
the facts in light of the evidence presented during the
state court proceedings).
In focusing solely on the fact that Dr. Bear could
not say with medial certainty that the Petitioner could

26
not achieve an erection in 2007, the state trial court
completely missed the point. The point is that Dr.
Bear’s testimony was expert medical testimony –
accepted as credible – that R.J.A. was certainly lying
about giving and receiving anal sex with the Petitioner
as they took turns getting onto their hands and knees.
Dr. Bear’s testimony showed that Stepdaughter
Atkinson was certainly lying or deeply mistaken about
the fact that the Petitioner was rehabilitated by April
2007, that he suffered from only a slight limp, and that
he was physically capable of doing everything that
R.J.A. alleged. Dr. Bear’s testimony showed that the
prosecutor was incorrect when he told the jury that the
Petitioner was rehabilitated and fit enough to perform
the acts in question.
The Petitioner could speak and move his right
hand and coerce someone with words, but that is not

27
what R.J.A. alleged. He alleged acts that took physical
exertion.

Dr. Bear never once testified that the

Petitioner was awkward or had to sit on the edge of a
bed or asked R.J.A. to accommodate his near-paralysis.
Dr. Bear’s testimony shows that R.J.A. and his mother
were, in fact, lying. The Petitioner could not have
gotten on the floor and traded anal sex with the boy
while getting on his hands and knees.

It was

impossible according to the credible medical testimony
presented during the state postconviction evidentiary
hearing. The Petitioner testified to that fact, but the
jury did not believe him; they believed R.J.A., his
mother, and the prosecutor. They believed the
Petitioner could do it. The credible neurologist opined
that he could not perform those actions – and that any
doctor would agree with him on that point because
these conclusions were based on objective medical

28
records.
Again, this case revolved solely around the
credibility of R.J.A. versus the credibility of K.S. and
the Petitioner. The testimony from Dr. Bear – a local,
credible neurologist – that it was utterly impossible for
the Petitioner to perform specific actions that R.J.A.
claimed the Petitioner performed establishes that the
Petitioner is “actually innocent” of the charges in this
case. The Petitioner should be afforded an opportunity
to present his “actual innocence” claim in federal court.
“The great writ of habeas corpus has been for
centuries esteemed the best and only sufficient defence
of personal freedom.” Ex parte Yerger, 8 Wall. 85, 95,
75 U.S. 85, 95 (1868). “[F]undamental fairness is the
central concern of the writ of habeas corpus.”
Strickland v. Washington, 466 U.S. 668, 697 (1984). In
Harris v. Nelson, 394 U.S. 286, 292 (1969), the Court

29
stated the following regarding the “great writ”:
There is no higher duty of a court,
under our constitutional system, than the
careful processing and adjudication of
petitions for writs of habeas corpus, for it
is in such proceedings that a person in
custody charges that error, neglect, or
evil purpose has resulted in his unlawful
confinement and that he is deprived of his
freedom contrary to law. This Court has
insistently said that the power of the
federal courts to conduct inquiry in
habeas corpus is equal to the
responsibility which the writ involves:
The language of Congress, the history of
the writ, the decisions of this Court, all
make clear that the power of inquiry on
federal habeas corpus is plenary.
(Citation omitted). Concluding that a freestanding
claim of actual innocence is cognizable in a § 2254
proceeding is consistent with the purpose of the “great
writ.”
By granting the petition in the instant case, the
Court will have the opportunity to resolve the circuit
split set forth above and clarify whether a freestanding

30
claim of actual innocence is cognizable in a § 2254
proceeding. The issue in this case is important and has
the potential to impact numerous cases nationwide.

31
I. CONCLUSION
The Petitioner requests the Court to grant the
petition for writ of certiorari.
Respectfully Submitted,
MICHAEL UFFERMAN
Michael Ufferman Law Firm, P.A.
2022-1 Raymond Diehl Road
Tallahassee, Florida 32308
(850) 386-2345/fax (850) 224-2340
FL Bar No. 114227
Email: ufferman@uffermanlaw.com
MARK V. MURRAY
Law Offices of Mark V. Murray
317 East Park Avenue
Tallahassee, Florida 32301
(850) 907-3301
FL Bar No. 182168
Email: mvm@capitalcityattorney.com
COUNSEL FOR THE PETITIONER

